<html>
<title> - BACKGROUND CHECK: ACHIEVABILITY OF NEW OZONE STANDARDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                           BACKGROUND CHECK:
                  ACHIEVABILITY OF NEW OZONE STANDARDS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2013

                               __________

                           Serial No. 113-35

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
81-724                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARK TAKANO, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
PAUL C. BROUN, Georgia               EDDIE BERNICE JOHNSON, Texas
RANDY WEBER, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Wednesday, June 12, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    17
    Written Statement............................................    17

                               Witnesses:

Ms. Amanda Smith, Executive Director, Utah Department of 
  Environmental Quality
    Oral Statement...............................................    18
    Written Statement............................................    21

Mr. Samuel Oltmans, Senior Research Associate, Cooperative 
  Institute for Research in the Environmental Sciences, 
  University of Colorado, and Earth System Research Laboratory 
  Global Monitoring Division
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Russell Dickerson, Professor, Department of Atmospheric and 
  Oceanic Science, University of Maryland
    Oral Statement...............................................    51
    Written Statement............................................    53

Mr. Jeffrey Holmstead, Partner, Bracewell & Giuliani LLP
    Oral Statement...............................................    63
    Written Statement............................................    65

Dr. John Vandenberg, Director, Research Triangle Park, North 
  Carolina Division, National Center for Environmental 
  Assessment, U.S. Environmental Protection Agency
    Oral Statement...............................................    75
    Written Statement............................................    77

Discussion.......................................................    73

             Appendix I: Answers to Post-Hearing Questions

Ms. Amanda Smith, Executive Director, Utah Department of 
  Environmental Quality..........................................    96

Mr. Samuel Oltmans, Senior Research Associate, Cooperative 
  Institute for Research in the Environmental Sciences, 
  University of Colorado, and Earth System Research Laboratory 
  Global Monitoring Division.....................................   102

Dr. Russell Dickerson, Professor, Department of Atmospheric and 
  Oceanic Science, University of Maryland........................   106

Mr. Jeffrey Holmstead, Partner, Bracewell & Giuliani LLP.........   108

Dr. John Vandenberg, Director, Research Triangle Park, North 
  Carolina Division, National Center for Environmental 
  Assessment, U.S. Environmental Protection Agency...............   114

             Appendix II: Aditional Material for the Record

Charts submitted by Representative Chris Stewart, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   134


                           BACKGROUND CHECK:
                  ACHIEVABILITY OF NEW OZONE STANDARDS

                              ----------                              


                        Wednesday, June 12, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T1724.001

[GRAPHIC] [TIFF OMITTED] T1724.002

[GRAPHIC] [TIFF OMITTED] T1724.003

[GRAPHIC] [TIFF OMITTED] T1724.004

[GRAPHIC] [TIFF OMITTED] T1724.005

[GRAPHIC] [TIFF OMITTED] T1724.006

[GRAPHIC] [TIFF OMITTED] T1724.007

[GRAPHIC] [TIFF OMITTED] T1724.008

    Chairman Stewart. The Subcommittee on Environment will come 
to order.
    Good morning, everyone. Thank you for your time today. 
Welcome to today's hearing entitled ``Background Check: 
Achievability of New Ozone Standards.'' In front of you are 
packets containing the written testimony, biographies, and 
Truth in Testimony disclosures for today's witness panels, whom 
I will be introducing in just a moment. The chair now 
recognizes myself for five minutes for an opening statement.
    Again, I would like to thank our excellent witnesses for 
being here today. We have what is really a superb panel, 
including the head of my state's world-class Department of 
Environmental Quality. Welcome. And each of you, I know, intend 
to tell us about recent science related to the background ozone 
levels and how these developments should inform EPA's upcoming 
revisions in the National Ambient Air Quality Standards, or 
NAAQS, for ozone.
    Recent studies suggest that EPA may be underestimating 
multiple sources of background ozone, especially in the western 
United States. Failure to acknowledge these uncontrollable 
concentrations could lead to EPA setting a new ozone standard 
next year that is at or near background levels, with 
catastrophic economic impacts for large swaths of the country. 
As this slide shows--and this slide was created from EPA data--
most of the Nation would be noncompliant with the new EPA 
standard. More discouraging, many of these locations would find 
it impossible to get in compliance because of naturally 
occurring ozone, or from emissions that are imported from other 
locations around the Nation or, in some cases, from around the 
globe. In fact, EPA data suggests that areas in virtually every 
state would violate these standards if the Agency went lower 
than the current limit of 75 parts per billion. The result 
leaves little room for states like Utah to demonstrate 
compliance with the Clean Air Act, and the consequences include 
draconian reduction requirements, severe economic sanctions, 
threats to highway funding, and construction bans.
    It is important to recognize that an unachievable standard 
would result in little actual environmental improvement. Over 
the past 30 years, the emissions of all precursors to ground-
level ozone have dropped more than 50 percent, and states have 
not even begun to implement the tighter 2008 ozone standards.
    The lower ozone standard of 60 parts per billion, which is 
currently being discussed by EPA, would be incredibly 
expensive. In fact, even the EPA's conservative cost estimate 
of $90 billion a year would make this proposed rule the most 
expensive regulation ever considered. But is this a record to 
be proud of? And it is potentially much worse, for outside 
analyses suggested the real cost of this proposed regulation is 
closer to $1 trillion in annual attainment costs and reduced 
gross domestic product. Recognizing the significant negative 
economic consequences of this proposed action, in 2011 the 
President showed restraint by withdrawing the proposal, citing 
the importance of reducing regulatory burdens.
    It is early in this standard-setting process, but once 
again there are troubling signs. The Agency's Clean Air 
Scientific Advisory Committee, which advises the Administrator 
on NAAQS, has already flagged that the EPA fails to provide a 
definition of ozone background or to discuss the role of 
background in developing options for the standards in its 
initial scientific documents.
    EPA also has signaled an unprecedented break with past 
practice in the Clean Air Act process by attempting to 
disregard background levels in evaluating health risks, 
essentially trying to load the dice to generate large 
regulatory benefits by claiming that a new standard would 
address ozone that cannot be controlled. One of the Agency's 
own science advisors has called this shift a misinterpretation 
that invites litigation against the Administrator and the 
Agency. It is critical that these advisors carry out their 
obligation under the Clean Air Act to advise EPA on the 
relative contribution of concentrations of natural as well as 
human activity and to inform the Administrator about any 
adverse public health, welfare, social, economic and energy 
effects from the new ozone standards.
    It is very important that these scientists focus on their 
role as independent peer reviewers. But the reality that I see 
is concerning. For example, among the 28 panelists reviewing 
EPA's scientific documents on ozone, 22 of them are cited by 
the EPA in the Agency's Integrated Science Assessment and they 
are referenced more than a thousand times in a document they 
are being asked to critically examine.
    Our witnesses will testify today about new modeling and 
monitoring results that show that atmospheric events like 
stratospheric intrusions, transported emissions from Asia, and 
other sources could make new ozone standards unachievable. As 
we will hear, these results are confirmed by EPA's monitors in 
rural areas and isolated National Parks.
    Let me be clear: if EPA lowers its standard to 60 parts per 
billion, there are places in this country that could not meet 
it even if they eliminated all human emissions. An air quality 
standard that cannot be met in Yellowstone or Canyonlands or 
Zion or the Grand Canyon is simply divorced from reality. EPA 
claims that there are flexibilities within the Clean Air Act 
implementation that could resolve these concerns about 
compliance due to exceptional events or international 
emissions. However, the Agency's track record on approving 
state applications under these provisions leaves little room 
for comfort.
    I look forward to discussing these absolutely critical 
issues with our witnesses today, and I now recognize the 
Ranking Member, Ms. Bonamici, for her opening statement.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Good morning and welcome to the Environment Subcommittee's hearing 
entitled ``Background Check: Achievability of New Ozone Standards.''
    I'd like to thank our excellent witnesses for being here today. We 
have a superb panel of experts, including the head of my state's world-
class Department of Environmental Quality, to tell us about recent 
science related to background ozone levels and how these developments 
should inform EPA's upcoming revisions to its National Ambient Air 
Quality Standards, or NAAQS, for ozone.
    Recent studies suggest that EPA may be underestimating multiple 
sources of background ozone, especially in the Western United States. 
Failure to acknowledge these uncontrollable concentrations could lead 
to EPA setting a new ozone standard next year that is at or near 
background levels, with catastrophic economic impacts for large swaths 
of the country.
    As this slide shows, and this slide was created from EPA data, most 
of the nation would be non-compliant with the new EPA standard. More 
discouraging, many of these locations would find it impossible to get 
in compliance because of naturally occurring ozone, or emissions that 
are imported from other locations around the nation or around the 
globe. In fact, EPA data suggests that areas in virtually every state 
would violate these standards if the Agency went lower than the current 
limit of 75 parts per billion. The result leaves little room for states 
like Utah to demonstrate compliance with the Clean Air Act, and the 
consequences include draconian reduction requirements, severe economic 
sanctions, threats to highway funding, and construction bans.
    It's also important to recognize that an unachievable standard 
would result in little actual environmental improvement. Over the last 
30 years, the emissions of all precursors to ground-level ozone have 
dropped more than 50 percent, and States have not even begun to 
implement the tighter 2008 ozone standards.
    The lower ozone standard of 60 parts per billion, which is 
currently being discussed by EPA, would be incredibly expensive. In 
fact, even the EPA's conservative cost estimate of $90 billion a year 
would make this proposed rule the most expensive regulation ever 
considered. But is this a record to be proud of? And it's potentially 
much worse, for outside analyses suggested the real cost of this 
proposed regulation is closer to one trillion dollars in annual 
attainment costs and reduced gross domestic product. Recognizing the 
significant negative economic consequences of this proposed action, in 
2011, the President showed restraint by withdrawing the proposal, 
citing ``the importance of reducing regulatory burdens.''
    It is early in this standard-setting process, but once again there 
are troubling signs. The Agency's Clean Air Scientific Advisory 
Committee, which advises the Administrator on NAAQS, has already 
flagged that the EPA ``fails to provide a. definition of ozone 
background'' or to ``discuss the role of background in developing 
options'' for the standards in its initial scientific documents.
    EPA has also signaled an unprecedented break with past practice in 
the Clean Air Act process by attempting to disregard background levels 
in evaluating health risks--essentially trying to load the dice to 
generate large regulatory benefits by claiming that a new standard 
would address ozone that cannot be controlled. One of the Agency's own 
science advisors has called this shift a misinterpretation that 
``invites litigation against the Administrator and the Agency.''
    It is critical that these advisors carry out their obligation under 
the Clean Air Act to advise EPA on the ``relative contribution to 
[ozone] concentrations of natural as well as'' human activity and to 
inform the Administrator about ``any adverse public health, welfare, 
social, economic, or energy effects'' from these new ozone standards.
    It is very important for these scientists to focus on their role as 
independent peer reviewers. But the reality that I see is concerning: 
For example, among the 28 panelists reviewing EPA's scientific 
documents on ozone, 22 of them are cited by EPA in the Agency's 
Integrated Science Assessment and they are referenced more than a 
thousand times in a document they are being asked to critically 
examine.
    Our witnesses will testify today about new modeling and monitoring 
results that show that atmospheric events like stratospheric 
intrusions, transported emissions from Asia, and other sources could 
make new ozone standards unachievable. As we will hear, these results 
are confirmed by EPA's monitors in rural areas and isolated National 
Parks.
    Let me be clear: if EPA lowers its standard to 60 parts per 
billion, there are places in this country that could not meet it even 
if they eliminated all human emissions. An air quality standard that 
cannot be met in Yellowstone, Canyonlands, Zion, or the Grand Canyon is 
divorced from reality.
    EPA claims that there are flexibilities within Clean Air Act 
implementation that could resolve these concerns about compliance due 
to exceptional events or international emissions. However, the Agency's 
track record on approving state applications under these provisions 
leaves little room for comfort.
    I look forward to discussing these absolutely critical issues with 
our witnesses today. I now recognize the Ranking Member Ms. Bonamici, 
for her opening statement.

    Ms. Bonamici. Thank you very much, Chairman Stewart. I want 
to thank all the witnesses for being here today. I hope that 
this discussion about the latest science regarding the health 
standard for ozone in the air we breathe, how ozone affects 
health and our quality of life, will set the stage for a 
positive outcome.
    As we will hear this morning, the EPA is considering new 
scientific information that will inform their work on setting 
an ozone health standard later this year. The last time the EPA 
reconsidered the ozone health standard in 2008, the scientific 
recommendations of the Clean Air Science Advisory Committee 
called for a more protective standard than we currently have in 
place. Now, five years later, we know more about how ozone 
impacts our health than ever before.
    According to the American Lung Association, numerous health 
studies show evidence of a causal link between inhaling ozone 
levels well below the standard, and measurable respiratory harm 
in children, the elderly, and people who exercise and work 
outdoors. Inflammation of the lungs and increased asthma 
attacks are just the start of the serious health problems 
associated with breathing ozone.
    Having a clean and healthy environment can build a stronger 
economy in many ways. Sick workers are not productive workers. 
Sick children are not learning and maximizing their potential. 
Time spent with doctors and in hospitals is time lost from more 
productive pursuits. And additionally, we cannot overlook the 
impact that pollution has on a thriving agricultural community. 
A vibrant economy can be the result of good environmental 
practices, not a victim of those practices.
    Over the years scientific and technological advancements 
have dramatically improved our knowledge about how ozone is 
formed and where sources of ozone precursors originate. The 
majority of ozone in most parts of the country originates in 
local human activities. Emissions from power plants and 
tailpipes are often the leading culprit, but ozone can also 
form from precursor emissions that may have originated 
thousands of miles away or from biogenic sources such as forest 
fires. Causes of ozone, especially at higher elevations and in 
the Intermountain West, seem to differ from those found on the 
East or West coasts and are often beyond the reach of our 
regulators. We still do not fully understand all of these 
complex processes, and strong investments in scientific 
research would make it possible for us to better identify 
sources, especially policy-relevant background conditions, with 
more precision. Scientific research would provide regulators 
with the information they would need to develop approaches to 
managing ozone more appropriate to local conditions. However, 
that kind of precision requires funding and, as Ms. Smith notes 
in her testimony, research funding at EPA is under pressure, 
and neither states nor universities are in a good position 
fiscally to fill the gap.
    The EPA has the responsibility to insure that its decision 
to set a new ozone standard is guided by the best available 
science. I am cognizant of the argument that local conditions 
in the Intermountain West may require some new forms of 
flexibility by the EPA in enforcing ozone standards, and I 
encourage EPA to work with the states to develop such 
flexibility. Despite that call for flexibility, the science on 
ozone and health is sound. The need for more science on policy-
relevant background levels of ozone must not deter or prevent 
the EPA from setting an ozone standard that is fully protective 
of human health.
    This country has proven time and time again that a cleaner 
environment improves worker productivity, increases 
agricultural yield, reduces mortality and illness, and achieves 
other economic and public health benefits that outweigh the 
costs of compliance. As we look ahead to the EPA's proposal to 
set a new ozone standard, the EPA must examine the latest 
scientific findings along with the cost of implementation and 
the protection of human health.
    I look forward to hearing from all the witnesses, and with 
that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Thank you, Chairman Stewart. I want to thank all of the witnesses 
for being here today. I hope this discussion about the latest science 
regarding the health standard for ozone in the air we breathe--how 
ozone affects health and our quality of life--will set the stage for a 
positive outcome.
    As we will hear this morning, the EPA is considering new scientific 
information that will inform their work on setting an ozone health 
standard later this year. The last time the EPA revised the ozone 
health standard in 2008, the advisory committee recommended a more 
protective standard than we currently have in place.
    Now, five years later, we know more about how ozone impacts our 
health than ever before. According to the American Lung Association, 
numerous health studies show evidence of a causal link between inhaling 
ozone levels well below the standard, and measurable respiratory harm 
in children, the elderly, and people who exercise and work outdoors. 
Inflammation of the lungs and increased asthma attacks are just the 
start of the serious health problems associated with breathing ozone.
    Having a clean and healthy environment can build a stronger economy 
in many ways. Sick workers are not productive workers. Sick children 
are not learning and maximizing their potential. Time spent with 
doctors and in hospitals is time lost from more productive pursuits. 
Additionally, we cannot overlook the impact that pollution can have on 
a thriving agriculture community. A vibrant economy can be the result 
of good environmental practices, not the victim of those practices.
    Over the years scientific and technological advancements have 
dramatically improved our knowledge about how ozone is formed and where 
sources of ozone precursors originate. The majority of ozone in most 
parts of the country originates in local human activities. Emissions 
from power plants and from tail pipes are often the leading culprit. 
But ozone can also form from precursor emissions that may have 
originated thousands of miles away or from biogenic sources such as 
forest fires. Causes of ozone, especially at higher elevations and in 
the Intermountain West, seem to differ from those found on the East or 
West coasts and are often beyond the reach of our regulators.
    We still do not fully understand all of these complex processes, 
and strong investments in scientific research would make it possible 
for us to identify sources, especially background conditions, with more 
precision. Scientific research would provide regulators with the 
information they would need to develop approaches to managing ozone 
more appropriate to local conditions. However, that kind of precision 
requires funding and, as Ms. Smith notes in her testimony, research 
funding at EPA is under pressure and neither states nor universities 
are in a good position fiscally to fill the gap.
    EPA has the responsibility to insure that its decision to set a new 
ozone standard is guided by the best available science. I am cognizant 
of the argument that local conditions in the Intermountain West may 
require some new forms of flexibility by EPA in enforcing ozone 
standards, and I encourage EPA to work with the states to develop such 
flexibility. Despite that call for flexibility, the science on ozone 
and health is sound. The need for more science on background levels of 
ozone must not deter or prevent the EPA from setting an ozone standard 
that is fully protective of human health.
    This country has proven time and time again that a cleaner 
environment improves worker productivity, increases agricultural yield, 
reduces mortality and illness, and achieves other economic and public 
health benefits that outweigh the costs of compliance.
    As we look ahead to the EPA's proposal to set a new ozone standard, 
the EPA must consider the latest scientific findings and the protection 
of human health. I look forward to hearing from the witnesses.

    Chairman Stewart. Thank you very much, Ms. Bonamici. We now 
recognize the Chairman of the full Committee, the gentleman 
from Texas, Mr. Smith, for an opening statement.
    Chairman Smith. Thank you, Mr. Chairman.
    Mr. Chairman, today's hearing comes at a critical time. The 
Environmental Protection Agency is now reviewing the science 
that it will use to determine whether to revise or retain the 
National Ambient Air Quality Standards for ozone, called NAAQS. 
This decision has significant implications that will drive 
regulatory requirements across the country and will have a 
significant impact on the economy. In 2010, the EPA itself 
estimated that revised ozone standards could impose compliance 
costs of $90 billion.
    As we will hear from today's witnesses, the Agency is now 
considering setting the NAAQS either at or below naturally 
occurring background levels in many parts of the country. This 
means two things. First, these areas will be out of compliance 
with the Clean Air Act through no fault of their own. And 
second, with no way to comply, these areas will face 
significant regulatory hurdles, with little to no environmental 
benefit.
    A nonattainment designation under the Clean Air Act has 
serious consequences. Additional permitting and compliance 
obligations could halt any business expansion or new economic 
development. And with limits on Federal highway funding, 
nonattainment areas would also suffer direct Federal sanctions 
that will harm their ability to make critical infrastructure 
investments.
    The effects could be devastating. Looking at EPA's 
monitoring data, we see that if EPA lowers the ozone standards 
to 60 parts per billion, over 90 percent of the U.S. population 
could live or work in a nonattainment area. Many communities 
still struggle to meet the standards that were set in 2008. In 
these tough economic times, tighter regulations would put an 
additional burden on the backs of hardworking American 
families. Businesses and communities across the country 
protested EPA's efforts to tighten these standards in 2010, and 
such concerns eventually forced President Obama to withdraw the 
proposal, a decision that is best remembered by former White 
House Chief of Staff Bill Dailey's asking, ``What are the 
health effects of unemployment?''
    I am once again concerned that without transparency, the 
EPA has incentive to further inflate the health benefit claims 
associated with tighter ozone standards, and alarmingly, the 
Agency may exaggerate benefits using undisclosed data with 
highly questionable results. For two years this Committee has 
asked the EPA for access to the data that supports two 
federally funded studies: the Cancer Prevention Study and the 
Harvard Six Cities Study. This data's significance goes well 
beyond the ozone standards we now consider. It forms the basis 
for nearly all benefit claims from Clean Air Act rulemaking in 
this Administration and a disproportionate share of overall 
Federal regulatory benefit claims. In other words, the EPA has 
refused to provide the data that supports a majority of 
regulatory benefit claims, and the EPA has repeatedly failed to 
respond to Congressional requests to make the underlying data 
publicly available. To the extent that any information has been 
provided, it contains significant gaps that make full 
replication and validation of the studies' original results 
impossible. Further, these studies are decades old and have not 
been comprehensively updated. Even the National Research 
Council in 2004 cautioned that these studies, ``have little use 
for decision making.'' That the agency now attempts to use this 
data set to justify new onerous regulations is unjustified.
    Today I will send a letter to the Acting EPA Administrator 
cautioning the Agency not to rely on studies based on these 
data in the ozone rulemaking. I am also once again asking the 
Agency to release the underlying data in a manner that is 
sufficient for independent analysis. If the Agency continues to 
ignore this request, the Committee will be forced to resort to 
formal action to obtain its release.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Today's hearing comes at a critical time. The Environmental 
Protection Agency (EPA) is now reviewing the science that it will use 
to determine whether to revise or retain the National Ambient Air 
Quality Standards for ozone.
    This decision has significant implications that will drive 
regulatory requirements across the country and will have a significant 
impact on the economy. In 2010, the EPA itself estimated that revised 
ozone standards could impose compliance costs of $90 billion.
    As we will hear from today's witnesses, the Agency is now 
considering setting the NAAQS either at, or below, naturally occurring 
background levels in many parts of the country. This means two things: 
First, these areas will be out of compliance with the Clean Air Act 
through no fault of their own. And second, with no way to comply, these 
areas will face significant regulatory hurdles--with little to no 
environmental benefit.
    A nonattainment designation under the Clean Air Act has serious 
consequences. Additional permitting and compliance obligations could 
halt any business expansion or new economic development.
    And with limits on federal highway funding, nonattainment areas 
would also suffer direct federal sanctions that will harm their ability 
to make critical infrastructure investments.
    The effects could be devastating. Looking at EPA's monitoring data, 
we see that if EPA lowers the ozone standards to 60 parts per billion, 
over 90 percent of the U.S. population could live or work in a 
nonattainment area. Many communities still struggle to meet the 
standards that were set in 2008. In these tough economic times, tighter 
regulations would put an additional burden on the backs of hard-working 
American families. Businesses and communities across the country 
protested EPA's efforts to tighten these standards in 2010. And such 
concerns eventually forced President Obama to withdraw the proposal--a 
decision that is best remembered by former White House Chief of Staff 
Bill Dailey's asking, ``What are the health effects of unemployment?''
    I am once again concerned that without transparency, the EPA has 
incentive to further inflate the health benefit claims associated with 
tighter ozone standards. And alarmingly, the agency may exaggerate 
benefits using undisclosed data with highly questionable results.
    For two years this Committee has asked EPA for access to the data 
that supports two federally-funded studies: the ``Cancer Prevention 
Study'' and the ``Harvard Six Cities Study.'' This data's significance 
goes well beyond the ozone standards we now consider. It forms the 
basis for nearly all benefit claims from Clean Air Act rulemaking in 
this Administration and a disproportionate share of overall federal 
regulatory benefit claims.
    In other words, the EPA has refused to provide the data that 
supports a majority of regulatory benefit claims. And the EPA has 
repeatedly failed to respond to Congressional requests to make the 
underlying data publicly available.
    To the extent that any information has been provided, it contains 
significant gaps that make full replication and validation of the 
studies' original results impossible. Further, these studies are 
decades old and have not been comprehensively updated. Even the 
National Research Council in 2004 cautioned that these studies, ``have 
little use for decision making.'' That the agency now attempts to use 
this data set to justify new onerous regulations is unjustified.
    Today I will send a letter to Acting EPA Administrator Bob 
Perciasepe cautioning the agency not to rely on studies based on these 
data in the ozone rulemaking. I am also, once again, asking the agency 
to release the underlying data in a manner that is sufficient for 
independent analysis. If the agency continues to ignore this request, 
the Committee will be forced to resort to formal action to obtain its 
release.

    Chairman Stewart. Thank you, Mr. Chairman.
    I now recognize the Ranking Member, the gentlelady from 
Texas, Ms. Johnson, for an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for holding the hearing on the forthcoming National Ambient 
Air Quality Standards for ground-level ozone, and I want to 
thank all the witnesses for being here today.
    As someone who has been in the public health field, I am 
keenly sensitive to the problem poor air quality can have on 
the health of our citizens, and especially the young and the 
infirm. As a country, we need to do all that we can to ensure 
that we have clean air to breathe. The EPA is at the forefront 
of protecting our citizens' ability to breathe clean air, 
whether it is in my home State of Texas or here in Washington, 
D.C. To do its job correctly, the EPA must invest in research, 
determining how pollutants occur and how they affect the health 
of our population. The EPA's investment in scientific research 
helps achieve regulations which are the fairest and most cost-
effective way of protecting our citizens from pollutants.
    I am looking forward to the testimony from the EPA's 
witness here today to explain the science behind the EPA's 
Integrated Science Assessment of Ozone and Related 
Photochemical Oxidants. This report is another reminder of the 
importance of investing in research. If we are going to ask the 
EPA protect the public health and the environment we must give 
them the funding to carry out the best research, thereby 
ensuring that the scientific justifications for any regulations 
from the EPA are backed by the best science.
    It has always seemed simple to me that protecting the 
health of our citizens ensures a stronger and more vibrant 
economy. I look forward to hearing about these new ozone air 
quality standards from our witnesses.
    I thank you, and yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    I want to thank Chairman Stewart for holding this hearing on the 
forthcoming National Ambient Air Quality Standards for ground level 
ozone and I want to thank the witnesses on the panel.
    As someone who has been in the public health field, I am keenly 
sensitive to the problem poor air quality can have on the health of our 
citizens, especially the young and the infirm.
    As a country, we need to do all that we can to ensure that we have 
clean air to breathe. The EPA is at the forefront of protecting our 
citizen's ability to breathe clean air, whether it is in my home State 
of Texas or here in Washington, D.C. To do its job correctly, the EPA 
must invest in research, determining how pollutants occur and how they 
affect the health of our population. The EPA's investment in scientific 
research helps achieve regulations which are the fairest and most cost-
effective way of protecting our citizens from pollutants.
    I am looking forward to the testimony from the EPA's witness here 
today to explain the science behind the EPA's Integrated Science 
Assessment of Ozone and Related Photochemical Oxidants. This report is 
another reminder of the importance of investing in research.
    If we are going to ask the EPA protect the public health and the 
environment we must give them the funding to carry out the best 
research; thereby ensuring that the scientific justifications for any 
regulations from the EPA are backed by the best science.
    It has always seemed simple to me that protecting the health of our 
citizens ensures a stronger and more vibrant economy. I look forward to 
hearing about these new ozone air quality standards from our witnesses 
today.

    Chairman Stewart. Thank you, Ms. Johnson.
    And if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our witnesses. Our 
first witness today I am proud to introduce here is Ms. Amanda 
Smith, Executive Director at the Utah Department of 
Environmental Quality. She is responsible for providing 
leadership to the department and to the State of Utah to carry 
out DEQ's mission of safeguarding human health and quality of 
life by protecting and enhancing the environment. Prior to 
this, Amanda was a Legislative Director and Rural Advisor to 
Governor Huntsman. Amanda Smith received her law degree from 
Gonzaga University.
    And as our witnesses should know, spoken testimony is 
limited to five minutes each after which Members of the 
Committee will have five minutes each to ask questions. I will 
introduce the subsequent witnesses as they get a chance for 
their opening statements.
    I now recognize Ms. Smith for five minutes to present her 
testimony.

                 TESTIMONY OF MS. AMANDA SMITH,

                      EXECUTIVE DIRECTOR,

            UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Smith. Mr. Chairman Stewart, Ranking Member Bonamici 
and Members of the Committee, my name is Amanda Smith. I am the 
Executive Director of the Utah Department of Environmental 
Quality.
    Utah is fortunate to boast a high quality of life, a strong 
economy and a safe, clean environment. Governor Herbert has 
directed the Department to take a proactive approach to solve 
Utah's air quality issues. From a strong idle reduction policy 
for state vehicles, to formation of the independent air quality 
organization, UCAIR, to address statewide air issues, to a 
multi-partner state-of-the-science wintertime ozone study, Utah 
has led.
    I am speaking before you today to express Utah's concerns 
about how the state will meet the ozone standard if it is 
lowered from 75 parts per billion. Surprisingly high ozone 
values have been measured at rural monitors in Utah and even 
within National Parks. Similar high values have also been seen 
throughout the Intermountain West. In Utah, our work to date 
has focused on reductions in urban areas, successfully reducing 
peak ozone levels to meet more stringent standards. However, in 
rural Utah, where there are few sources, ozone values have not 
been decreasing, rather values have remained fairly constant 
despite these significant reductions in emissions of ozone 
precursors in Utah and upwind states. National efforts to 
reduce ozone since the 1970s have focused on the eastern United 
States and California, with the accompanying research, modeling 
and regulatory strategies designed to solve those problems. The 
1990 Clean Air Act Amendments reflect that focus, and included 
specific strategies and deadlines to solve an urban ozone 
problem that was primarily caused by mobile sources. Only 
recently, as ozone standards have become more stringent, has 
attention been given to background ozone in the Intermountain 
West. Recent research shows significantly higher impacts in the 
West than in the rest of the country, with background ozone 
increasing every year. Wildfires and stratospheric ozone 
intrusions also contribute significantly to background ozone 
levels, and have a disproportionate impact on the Intermountain 
West. It is critical to recognize that the primary causes of 
high background ozone are beyond the control of the states.
    Before moving forward with a more stringent ozone standard, 
EPA needs to have in place the necessary tools to allow states 
to succeed in meeting this standard. These tools could include 
potential legislation, regulations, technical tools, and 
additional research on ozone formation and mitigation. 
Additionally, EPA must define paths forward on how attainment 
will be addressed through policies such as exceptional events, 
policy-relevant background and rural transport area 
designation. Again, these tools were designed for the East 
Coast and currently are problematic and an ill fit for solving 
ozone in the rural Intermountain West.
    Specifically, the exceptional-events policy has proven to 
be an impossibly high hurdle to meet and eats up literally 
thousands of hours of critical staff time to develop each 
submission. Since 2008, Utah has submitted 12 exceptional-event 
demonstrations for particulate matter that have required over 
4,000 hours of technical work. None of those have been approved 
by Region 8. There were many other events, including ozone 
levels affected by wildfires that we did not even attempt to 
demonstrate as exceptional events because the technical 
criteria are too difficult to meet. If the exceptional-event 
process doesn't work for particulate matter, it will not work 
for the complicated science behind rural background ozone. If 
EPA moves forward with a more stringent standard without 
workable measures to address background ozone, it will 
guarantee failure for Utah, leading to severe consequences for 
the state.
    To put this in perspective, the Canyonlands monitor in San 
Juan County regularly measures ozone above 70 parts per 
billion, the upper end of EPA's standard proposal. San Juan 
County is close to the size of New Jersey and has a population 
of about 14,000 people. If designated nonattainment, permitting 
regulations would require existing sources to reduce emissions 
before new emission sources could be built, affecting economic 
development. If the standards are not met after that, more 
stringent strategies are required with additional reductions in 
activities such traffic control measures, etc. These 
requirements would be nearly meaningless in reducing ozone and 
would have an exceptionally burdensome impact on an area of 
Utah with one of the highest rates of poverty.
    The Department of Environmental Quality's mission is to 
safeguard public health and our quality of life by protecting 
and enhancing the environment. We take that mission seriously. 
Transportation-focused measures in small rural communities will 
not be effective, nor will overly stringent controls applied to 
remote sources. Setting an ozone standard that can't be met 
will not improve public health.
    Thank you, Chairman Stewart, Ranking Member Bonamici and 
Members of the Committee. I appreciate the time.
    [The prepared statement of Ms. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T6901.018
    
    [GRAPHIC] [TIFF OMITTED] T6901.019
    
    [GRAPHIC] [TIFF OMITTED] T6901.020
    
    [GRAPHIC] [TIFF OMITTED] T6901.021
    
    [GRAPHIC] [TIFF OMITTED] T6901.022
    
    [GRAPHIC] [TIFF OMITTED] T6901.023
    
    [GRAPHIC] [TIFF OMITTED] T6901.024
    
    [GRAPHIC] [TIFF OMITTED] T6901.025
    
    [GRAPHIC] [TIFF OMITTED] T6901.026
    
    [GRAPHIC] [TIFF OMITTED] T6901.027
    
    [GRAPHIC] [TIFF OMITTED] T6901.028
    
    [GRAPHIC] [TIFF OMITTED] T6901.029
    
    [GRAPHIC] [TIFF OMITTED] T6901.030
    
    Chairman Stewart. Thank you, Ms. Smith.
    Our second witness today then is Mr. Samuel Oltmans, 
Research Associate with the Cooperative Institute for Research 
in the Environmental Sciences at the University of Colorado at 
Boulder. This is a joint institute between the University of 
Colorado and the National Oceanic and Atmospheric 
Administration. Mr. Oltmans conducted atmospheric and 
environmental research for NOAA and its predecessors for nearly 
40 years--and sir, you don't look that old. I find that hard to 
believe--and was the Chief of the Ozone and Water Vapor Group 
of NOAA's Earth Systems Research Lab for 15 years. Mr. Oltmans 
pursued graduate studies in astrogeophysics at the University 
of Colorado.
    Mr. Oltmans, for your testimony then.

                TESTIMONY OF MR. SAMUEL OLTMANS,

                   SENIOR RESEARCH ASSOCIATE,

               COOPERATIVE INSTITUTE FOR RESEARCH

                 IN THE ENVIRONMENTAL SCIENCES,

                    UNIVERSITY OF COLORADO,

              AND EARTH SYSTEM RESEARCH LABORATORY

                   GLOBAL MONITORING DIVISION

    Mr. Oltmans. Chairman Stewart, Ranking Member Bonamici, 
honorable Members. My name is Sam Oltmans, and I am a Research 
Associate at the University of Colorado. Thank you for this 
opportunity to present recent developments both from an 
observational and modeling perspective in our understanding of 
background ozone and its relevance in determining an ozone 
standard as part of the National Ambient Air Quality Standards 
process.
    In the previous review of the ozone standard culminating in 
the current form of the standard with a maximum daily eight 
hour average of 75 parts per billion background ozone, or as it 
was referred to as policy-relevant background, was based solely 
on an atmospheric modeling exercise from a single global model. 
At that time, empirical observations representing background 
ozone suggested levels higher than those determined by the 
model, but these were not given significant weight by the EPA 
and its Clean Air Scientific Advisory Committee in determining 
background ozone levels.
    As part of the review of the ozone standard currently 
underway, the Integrated Science Assessment refers to several 
terms to designate background ozone including North American 
background and U.S. background. The term ``policy relevant 
background'', or PRB, used in early discussions has generally 
been abandoned. This is a positive step, in my mind, since it 
at least implies that background ozone can be assessed from 
relevant observations rather than being simply a model 
construct.
    Consideration of U.S. background reflects the reality that 
the United States has no regulatory control of pollution 
sources beyond its borders. Recent studies, including our own, 
have shown that several key sites at or near the West Coast of 
the United States regularly provide observational data that 
represent background ozone levels. Two sites have been 
extensively studied that include Trinidad Head, a marine 
boundary layer site in northern California, and Mount Bachelor, 
a higher altitude location in Oregon. At Trinidad Head, 
springtime daily eight hour maximum ozone concentrations exceed 
45 parts per billion one quarter of the time. At Mt. Bachelor, 
May ozone levels are higher than 60 ppb 25 percent of the time. 
These observations suggest that background ozone could be 
substantial--could be a substantial contribution at sites where 
ozone is measured near the NAAQS standard. Contribution--I will 
show that recent modeling results also support this conclusion.
    In the current Integrated Science Assessment, a comparison 
of the model-derived ozone values for determining background 
ozone for the assessment is significantly lower than the 
observed values, as you can see in the slide. This suggests 
background ozone is underestimated in the model since at 
Trinidad Head, ozone levels under conditions representative of 
background are almost always higher than non-background 
conditions.
    Recent work led by Dr. Meiyun Lin at the Geophysical 
Research Laboratory and Princeton University and collaborators, 
including myself, is a major advance within the modeling 
framework in the ability to quantify the contributions to 
background ozone. This new work by Lin and coauthors published 
last year dramatically reinforces the important contribution of 
North American background ozone, including a significant 
stratospheric component, on 8-hour average concentrations at or 
near current air quality standard levels. Unlike the modeling 
work used in EPA assessments, the GFDL model explicitly 
simulates ozone variability in the lower stratosphere and its 
dynamic coupling with the troposphere, as opposed to using a 
parameterized formulation. Based on this model, estimates of 
stratospheric impacts on surface ozone over the western United 
States are generally higher, and up to two to three times 
greater during intrusions than previous model estimates. This 
finding is in notable contrast to prior work concluding that 
stratospheric influence on surface ozone concentrations is 
rare. It should also be pointed out that these findings show 
that the influence of ozone transported from the stratosphere 
is not limited to episodes categorized as exceptional events.
    In summary, the work of Lin and coauthors shows that 
background ozone concentration contributes on average about 40 
parts per billion to measured ozone in the Mountain West. A 
significant portion of the time, background ozone exceeds 50 
ppb under high measured ozone conditions. Based on these recent 
results, the EPA and the Ozone Panel of CASAC should take 
cognizance of the underestimates of background levels described 
in the Assessment and utilize the more realistic estimates of 
background ozone available. These more realistic estimates 
should be used when developing the Human Health Risk and 
Exposure Assessment, Welfare Risk and Exposure Assessment, and 
Policy Assessment documents that will play a role in the 
determination of the recommended ozone health and welfare 
standards.
    [The prepared statement of Mr. Oltmans follows:]

    [GRAPHIC] [TIFF OMITTED] T1724.012
    
    [GRAPHIC] [TIFF OMITTED] T1724.013
    
    [GRAPHIC] [TIFF OMITTED] T1724.014
    
    [GRAPHIC] [TIFF OMITTED] T1724.015
    
    [GRAPHIC] [TIFF OMITTED] T1724.016
    
    [GRAPHIC] [TIFF OMITTED] T1724.017
    
    [GRAPHIC] [TIFF OMITTED] T1724.018
    
    [GRAPHIC] [TIFF OMITTED] T1724.019
    
    [GRAPHIC] [TIFF OMITTED] T1724.020
    
    [GRAPHIC] [TIFF OMITTED] T1724.021
    
    [GRAPHIC] [TIFF OMITTED] T1724.022
    
    [GRAPHIC] [TIFF OMITTED] T1724.023
    
    [GRAPHIC] [TIFF OMITTED] T1724.024
    
    [GRAPHIC] [TIFF OMITTED] T1724.025
    
    [GRAPHIC] [TIFF OMITTED] T1724.026
    
    Chairman Stewart. Thank you, Mr. Oltmans.
    Our third witness today is Dr. Russell Dickerson, Professor 
at the University of Maryland's Department of Atmospheric and 
Oceanic Studies--I am sorry--Oceanic Science. Dr. Dickerson has 
served on EPA air quality panels and was a member of the 
National Academy of Sciences and National Research Council 
Committee on Animal Feeding Operations. Dr. Dickerson received 
his Ph.D. from the University of Michigan studying radiation 
and trace gases in the atmosphere, and Dr. Dickerson, your five 
minutes, please.

              TESTIMONY OF DR. RUSSELL DICKERSON,

              PROFESSOR, DEPARTMENT OF ATMOSPHERIC

                      AND OCEANIC SCIENCE,

                     UNIVERSITY OF MARYLAND

    Dr. Dickerson. Thank you. Good morning. My name is Russ 
Dickerson. I am with the University of Maryland, but I am 
speaking on my own behalf.
    [Slide.]
    I like this picture because it is the NASA P3 research 
aircraft during DISCOVER-AQ campaign conducted over the Mid-
Atlantic states in the summer of 2011, and that picture was 
shot from the University of Maryland research aircraft. We have 
a Cessna. Our pockets aren't quite as deep as NASA's. But both 
of these aircraft were chockfull of research instruments and 
they are flying in formation at this point to make sure we are 
on the same page with respect to calibrations. In the middle of 
that picture, you will see a little power plant on the Eastern 
Shore.
    So what has been the result of all of this what we hope is 
policy-relevant science? Next slide, please. Oh, I can do it.
    [Slide.]
    These are the exceedance days over the past few decades for 
a combination of Baltimore and Washington, and you can see that 
we are making excellent progress. Why have we made this 
progress? I like to think that it is because the science has 
helped guide policy, and there should be some of these little 
lenticulars that look like postcards that have been passed 
around. They are NASA observations of NO2, the thing that 
produces ozone, and you can see from this lenticular that we 
made good progress. The concentrations in 2005 were quite a bit 
higher than they were in 2010. So we are making good progress 
but we are not there yet. You will notice that in the last 
couple of years there are still a substantial number of 
exceedances in the Baltimore-Washington area.
    So my main point would be that ozone at concentrations of 
60 to 70 parts per billion is harmful, causing morbidity and 
mortality. This is what the standard should be. It is the best 
science available, and that is my recommendation.
    It is absolutely true that natural processes, as my 
colleague, Mr. Oltmans, has indicated, are important, and as a 
research scientist I have flown through these events and seen 
them. They happen. But I have never seen one in the eastern 
United States in my 20 years of flying through ozone events 
that has come down below about 10,000 feet altitude. So for the 
vast majority of nonattainment sites, these are not important. 
They are, however, important for the Intermountain West.
    What is background ozone? This is an image--I am an 
experimentalist so I am always skeptical of models, but some 
models are useful, and this is one that is useful, and it shows 
what the background concentrations of ozone are, how much ozone 
would we have if there were no emissions in America, and the 
hotter the color, the higher the concentration of ozone here. 
So this model makes sense with respect to observations. You can 
see that in springtime, there is a substantial amount of ozone, 
especially at high altitudes. In the summer, it is less. And if 
you look at the United States east of the Rocky Mountains, 
those concentrations are really pretty modest. So I think we 
can achieve higher standards.
    There is a mechanism in existence called exceptional 
events. I sympathize with the difficulty of getting those. The 
State of Maryland was successful in getting one. It was not 
easy. EPA has begun streamlining that process. Oh, and the NASA 
team of which I am a member that generated these lenticulars is 
called the Air Quality Applied Science Team, AQAST. The Air 
Quality Applied Sciences Team is prepared to provide support at 
no expense to the States to help explain natural events, forest 
fires and so on using in situ and remotely sensed data. So that 
mechanism is in place, and that is appropriate for dealing with 
exceptional events.
    Now, for the eastern United States, certainly where I have 
most of my experience, there are certainly pollution sources 
that can be controlled. There are some power plants still using 
the technology of the 1960s, ICI industrial, commercial 
institutional boilers that are uncontrolled, even agricultural 
processes that with judicious application of good agricultural 
practices could help reduce nitric oxide, ``ozone precursor'' 
emissions, to the atmosphere.
    However, in order for these to be effective, we will have 
to realize that air pollution episodes are much larger in scope 
than a single small eastern state. We need to consider the 
entire eastern United States as one large air shed.
    So in conclusion, I will say that I agree with tightening 
the standards. I don't think it is appropriate to punish the 
people of urban areas in the eastern United States by 
maintaining looser standards, and we have made a lot of 
progress, but as Robert Frost said, ``we have promises to keep 
and miles to go before we sleep.''
    Thank you.
    [The prepared statement of Dr. Dickerson follows:]

    [GRAPHIC] [TIFF OMITTED] T1724.027
    
    [GRAPHIC] [TIFF OMITTED] T1724.028
    
    [GRAPHIC] [TIFF OMITTED] T1724.029
    
    [GRAPHIC] [TIFF OMITTED] T1724.030
    
    [GRAPHIC] [TIFF OMITTED] T1724.031
    
    [GRAPHIC] [TIFF OMITTED] T1724.032
    
    [GRAPHIC] [TIFF OMITTED] T1724.033
    
    [GRAPHIC] [TIFF OMITTED] T1724.034
    
    [GRAPHIC] [TIFF OMITTED] T1724.035
    
    [GRAPHIC] [TIFF OMITTED] T1724.036
    
    Chairman Stewart. Thank you, Dr. Dickerson.
    Our fourth witness is Mr. Jeffrey Holmstead, Partner of 
Bracewell & Giuliani. Mr. Holmstead is one of the Nation's 
leading air quality lawyers and heads the Environmental 
Strategies Group at Bracewell & Giuliani. He previously served 
as the Assistant Administrator at the EPA for the Office of Air 
and Radiation. He also served on the White House staff as 
Associate Counsel to former President George H.W. Bush. Mr. 
Holmstead received his law degree from Yale Law School. Mr. 
Holmstead.

              TESTIMONY OF MR. JEFFREY HOLMSTEAD,

               PARTNER, BRACEWELL & GIULIANI LLP

    Mr. Holmstead. Thank you. I am delighted to be here this 
morning. As you mentioned, I am a Partner in the law firm of 
Bracewell and Giuliani, but I am not appearing on behalf of my 
law firm or any clients this morning. I am here to share my 
views as a former EPA official and as a private attorney who 
spent more than 25 years dealing with Clean Air Act issues.
    One of the things that I think has become apparent is, 
ozone is not a new issue. There are some issues that arise 
under the Clean Air Act that really are kind of new. The focus 
on fine particles, which I know many of you are aware of, is 
something that really has only been a regulatory and science 
issue over the last decade or so. But ozone has been an issue 
now for more than 40 years, and I do think there is a couple of 
things--and I have been sitting here trying to think what I can 
add to this panel, and the first thing I want to say, which I 
think we would all agree with, is, we really have made 
remarkable progress over 40 years. By any measure, ozone levels 
throughout almost certainly all urban areas have improved 
pretty dramatically. You talk to people who lived in Los 
Angeles or Houston back in the early 1970s, and it is really 
pretty remarkable.
    The issue, though--well, there is really a confluence of 
two or three things that are going on now. As researchers have 
become more sophisticated at looking at more subtle signals in 
the data, we are seeing that at lower and lower levels, there 
appear to be health effects. There is still debate over how 
serious those are and how widespread they are, but certainly 
EPA over the years has changed its view on what the safe level 
is, so going back to when I first started thinking about these 
issues, the standard people were thinking about was 120 parts 
per billion, and that was measured in a slightly different way 
so you can't exactly compare it with today's levels, but think 
of this: the standard has gone from 120, and then in 1997 it 
went down to 84, and then in 2008 it has gone down to 75, and 
now EPA is talking about lowering it--a standard that was 120 
and then 84 and 75, we are now talking, as Dr. Dickerson said, 
somewhere between 60 and 70.
    The other issue is--so we have made enormous progress but 
EPA says we need to do more, and clearly there is more that we 
need to do. The issue, though, is, notwithstanding this 
considerable process, the history has shown us that just 
changing the standard doesn't clean up the air. You need 
technology, you need things that you can actually do, and the 
way that the Clean Air Act works really hasn't changed since 
1970 in terms of this particular program. Back in the 1970s, 
the general view was, if you had a pollution problem, it was 
largely a local problem, and so EPA would set the standard and 
then states would be given the responsibility to go out and 
control local sources to make sure that they met the standard, 
and that is what people assumed was the way to clean up our 
air. Well, we have discovered it is actually much more 
complicated than that, as various people have talked about this 
morning. There certainly are localized sources of pollution, 
and I agree with Dr. Dickerson that there is more than we can 
do in some cases, but the problem is, there are many parts of 
the country where there is not much more we can do, especially 
when it comes to these events that occur from time to time but 
don't quality for EPA's exceptional-events policy.
    And so my basic message this morning is, I think that the 
Clean Air Act that has served us pretty well for the last 40 
years on ozone is going to have to be reexamined, and I think 
this Committee, even though you don't have regulatory 
jurisdiction, can play a very important part in making sure 
that the public and policymakers understand the issues that we 
are facing today.
    I would also like to suggest that we can rely more on EPA's 
Clean Air Science Advisory Committee, the CASAC, which was 
specifically set up by Congress to deal with some of these 
issues, and for many years, CASAC has largely simply responded 
to questions it has received from EPA staff. But Congress 
clearly envisioned a more--a broader role for CASAC, and I 
think it is important now that we have very fine scientists who 
look at these issues about what is background, what more can we 
do in the United States, and then how do we deal with the fact 
that there are many states certainly in the Intermountain West 
but in other parts of the country that now have a legal 
obligation to do something that is impossible for them to do. I 
hope that isn't related to my testimony. Is that----
    Chairman Stewart. I think you are okay. Please continue.
    Mr. Holmstead. So I think the fundamental question for 
Congress is what does it mean to have a statute that imposes a 
legal obligation that requires states to do something that is 
impossible for them to do. I don't think that makes any sense. 
I think it is contrary to our basic notions about what the rule 
of law should mean, and so I think it is time for Congress to 
start thinking about how we can be realistic about what we can 
do, how we can continue to improve air quality throughout the 
United States without imposing the burdens on states like Utah 
and others that have really done largely what they can do and 
are being affected by events and by actions that are outside of 
their control.
    [The prepared statement of Mr. Holmstead follows:]

    [GRAPHIC] [TIFF OMITTED] T1724.037
    
    [GRAPHIC] [TIFF OMITTED] T1724.038
    
    [GRAPHIC] [TIFF OMITTED] T1724.039
    
    [GRAPHIC] [TIFF OMITTED] T1724.040
    
    [GRAPHIC] [TIFF OMITTED] T1724.041
    
    [GRAPHIC] [TIFF OMITTED] T1724.042
    
    [GRAPHIC] [TIFF OMITTED] T1724.043
    
    [GRAPHIC] [TIFF OMITTED] T1724.044
    
    [GRAPHIC] [TIFF OMITTED] T1724.045
    
    [GRAPHIC] [TIFF OMITTED] T1724.046
    
    Chairman Stewart. Thank you, sir. By the way, none of us 
have any idea what any of those bells mean, so--our final 
witness today is Dr. John Vandenberg, Director of Research 
Triangle Park, North Carolina Division, at the National Center 
for Environmental Assessment, U.S. Environmental Protection 
Agency. Dr. Vandenberg began working in EPA in 1984 and was 
responsible for performing national scale exposure and health 
risk assessments for hazardous air pollutants. He received his 
Ph.D. from Duke University in biophysical ecology. Dr. 
Vandenberg.

               TESTIMONY OF DR. JOHN VANDENBERG,

               DIRECTOR, RESEARCH TRIANGLE PARK,

                    NORTH CAROLINA DIVISION,

         NATIONAL CENTER FOR ENVIRONMENTAL ASSESSMENT,

              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Dr. Vandenberg. Chairman Stewart and Members of the 
Committee, thank you for the opportunity to testify today. My 
name is John Vandenberg, and I am a Division Director in EPA's 
National Center for Environmental Assessment in the Office of 
Research and Development. My division is responsible for 
identifying and evaluating the world's scientific literature to 
create the Integrated Science Assessment, which I will refer to 
as the ISA, for ozone. The ISA serves as the scientific 
foundation for decisions by the Administrator on retaining or 
revising the National Ambient Air Quality Standards, which I 
will refer to as the NAAQS, for ozone. My testimony today will 
include a brief overview of the process for reviewing the NAAQS 
including how the ISA fits into this process, the scientific 
information related to background ozone levels in the United 
States.
    The process for reviewing the NAAQS contains four major 
components: science assessment, risk and exposure assessment, 
and policy assessment and rulemaking. The ISAs are developed by 
the Office of Research and Development to evaluate the 
atmospheric chemistry involved in pollutant formation and 
presence as well as the human health and environmental 
consequences of exposure. The risk and exposure assessment as 
well as the policy assessment are developed by the Office of 
Air and Radiation, and they draw from the ISA but they do not 
revisit the conclusions of the ISA. Each of these assessments 
undergoes independent peer review by the Clean Air Scientific 
Advisory Committee, or CASAC, and public review. The final 
stage of the NAAQS review process is rulemaking, which involves 
developing a proposed decision, considering public comments, 
and completing the review with a final decision by the 
Administrator.
    Ozone is one of six pollutants for which a NAAQS has been 
established under the Clean Air Act. Ozone in the atmosphere is 
not directly emitted from sources but rather ozone is formed in 
the atmosphere by photochemical reactions involving sunlight 
and certain air pollutants or precursors. Based on a strong 
body of evidence, in 2008 EPA lowered the NAAQS for ozone from 
the 1997 level of 0.08 parts per million to 0.075 parts per 
million.
    The current review of the air quality criteria for ozone 
was initiated in October of 2008. The final ISA for ozone 
includes the evaluation of over 2,200 scientific studies, and 
those were released in February of 2013 after three reviews by 
CASAC. The final ISA incorporated revisions based on CASAC and 
public comments. I have a copy here of half of the ISAs, twice 
as much as that.
    In the February 2013 ozone ISA, EPA concluded there is 
clear, consistent evidence of a causal relationship between 
short-term ozone exposure and respiratory health effects. EPA 
also concluded that the current body of research provides 
consistent evidence for causal relationship between exposure to 
ozone and ecosystem effects.
    In the context of review of the ozone NAAQS, EPA generally 
defines background ozone in ways that distinguish between 
concentrations that result from emissions of precursor 
pollutants that are relatively less controllable from those 
that are relatively more controllable through U.S. policies or 
through international agreements. In the current review of the 
ISA, defines background in three different ways. The most 
narrow definition is referred to as natural background, which 
includes those resulting from precursor emissions of only 
natural origin from all over the world such as from wildfires 
and stratospheric ozone intrusion. A second definition is 
referred to as North American background, which is ozone 
concentration that would occur in the United States in the 
absence of manmade precursor emissions in continental North 
America including the United States, Canada and Mexico. The 
third definition is referred to as U.S. background, which 
includes natural background plus manmade precursor emissions 
from all countries outside of the United States including 
outside of Canada and Mexico.
    Estimates of background concentrations in the United 
States, regardless of which definition is used, cannot be 
obtained directly from measurements of ozone. Instead, air 
quality models are used to estimate background concentrations, 
and this approach has been supported by CASAC. The ISA included 
several recent modeling studies which showed that background 
concentrations vary by region of the country and by season. 
These modeling efforts result in estimates of seasonal average 
North American background ozone levels of 29 plus or minus 8 
parts per billion at low elevations. Modeling results also 
suggests that at high elevations, background concentrations can 
make up a greater proportion of measured ozone on some high-
ozone days. In low elevations, background concentrations make 
up a relatively small proportion of measured ozone on those 
high-ozone days. These results indicate that in low-elevation 
areas on high-ozone days, the ozone is mainly formed in the 
United States from U.S. manmade emissions.
    In closing, EPA's Integrated Science Assessment for ozone 
evaluates the scientific information on atmospheric monitoring 
and chemistry and on the health and welfare effects of ozone. 
This information will be considered by the Administrator in the 
decision-making process for ozone.
    Thank you for the opportunity to testify today. I am happy 
to answer any questions you may have.
    [The prepared statement of Dr. Vandenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T1724.047
    
    [GRAPHIC] [TIFF OMITTED] T1724.048
    
    [GRAPHIC] [TIFF OMITTED] T1724.049
    
    [GRAPHIC] [TIFF OMITTED] T1724.050
    
    [GRAPHIC] [TIFF OMITTED] T1724.051
    
    [GRAPHIC] [TIFF OMITTED] T1724.052
    
    Chairman Stewart. Thank you, Dr. Vandenberg. I thank, 
again, all of the witnesses for your testimony. I would like to 
remind Members that the Committee rules limit questioning to 
five minutes, and the chair will at this point open the round 
of questions, and the chair recognizes himself for five 
minutes.
    Once again, I think that your expertise and the experience 
that all of you bring to this panel, we greatly appreciate 
that. Some of you know that I represent the State of Utah. Salt 
Lake City is a big part of my district. It is one of the most 
beautiful cities in the country, I believe, right at the 
foothills of the Wasatch Range, but because of geography 
primarily, we from time to time have inversions come in in the 
winter and ozone becomes a real problem for us. I have 
children. Some of them have respiratory illnesses, which was 
aggravated by these conditions. Ms. Bonamici mentioned in her 
opening statement children's health, and I appreciate that she 
did that. This is something that all of us would like to 
address. Something that all of us would like to make better if 
we can.
    Dr. Dickerson, you talked about some of the progress we 
have made, and as well as some of the other witnesses, and we 
celebrate that and we should be proud of that, and I think most 
of us would agree that we want to help, we want to make this 
better if we can. Dr. Dickerson, you said something I would 
like to come back to in a moment for a question, but you said--
paraphrasing, I think--you said it is not fair to penalize 
eastern communities or some eastern states with a standard that 
if we were to lower that standard would help those communities, 
and I would suggest that at the same time, it wouldn't be fair 
to penalize western communities or western states with a 
regulation that is unachievable for them.
    If I could bring up the slide that I used in my opening 
statement, and I know this is familiar to all of you, at least 
I am guessing that it would, you can see that vast swaths of 
this Nation that would be either not in compliance with the new 
standard if the EPA sets the standard at 60 - 70 parts per 
billion, as they have been discussing. Would any of you--I will 
ask this individually very quickly--would any of you disagree 
with the statement that there will be parts of the country that 
cannot meet the new standard due to background concentrations 
of ozone? Ms. Smith, I will start with you. Would you disagree 
with that?
    Ms. Smith. Thank you, Chairman Stewart. No, I would not 
disagree with that. I think Utah is a case in point. We would 
have counties that would be unable to achieve the standard.
    Chairman Stewart. Okay. And if I could emphasize that for 
just a minute while I am talking to you, Ms. Smith. I mean, if 
you look at a map of Utah--and Utah isn't New York City, this 
is a very rural part of the country--and you can see some of 
the eastern and southern parts of my state where there are a 
few thousand people living, and the ozone that is created there 
is very small--very, very small parts of that are created by 
manmade activity.
    Ms. Smith. That is correct. If you look at the State of 
Utah, the lower southeastern county is San Juan County. That 
county has one major source.
    Chairman Stewart. Yeah, one.
    Ms. Smith. One.
    Chairman Stewart. Other Members of the panel, would any of 
you disagree with that statement that there will be large parts 
of the country that would be in noncompliance because of 
naturally occurring ozone? Okay. So none of you disagree with 
that. Well, then I would ask very quickly, and maybe I will 
start with you, Mr. Vandenberg, and I would like to save a 
little time to come back to Dr. Dickerson, but I mean, what 
would those counties do? What do you suggest that they do then?
    Dr. Vandenberg. Thank you for your question. To go back to 
the question before you were asking whether background itself 
would lead to nonattainment in some counties, is that--did I 
understand what you were implying?
    Chairman Stewart. Yes.
    Dr. Vandenberg. I have to say, I am not sure if it would be 
the case or not. The way the monitors are evaluated is to look 
at the fourth highest level in each of three years and average 
across those years, so I don't--I am not aware of the data that 
would lead me to the conclusion to say yes. I apologize for----
    Chairman Stewart. Okay. Other Members of the panel, would 
you think--Mr. Holmstead, would that be true, that there would 
be some parts of the Nation that would be in nonattainment 
because of background ozone?
    Mr. Holmstead. I think that is almost certain to be the 
case, given the way that the standard is currently done.
    Chairman Stewart. Okay. So let us assume that that is true 
because that is the testimony of some, and our information 
indicates that is absolutely the case, then again, Dr. 
Vandenberg, what would you suggest those parts of the country 
do?
    Dr. Vandenberg. I believe that the key thing is to bring to 
bear the science information that is available. As I mentioned 
in my testimony, ozone is formed from precursor emissions from 
volatile organic compounds and nitrogen oxides, and to look at 
the models to help evaluate what are the major contributors to 
the ozone levels and recognize that there are stratospheric 
intrusions as well as wildfires that contribute. And, as has 
been mentioned, there is the exceptional-events policy that may 
contribute to the evaluation of that.
    Chairman Stewart. Okay, and I appreciate your answer, and 
my time is up, and I wish it wasn't because I would really like 
to come back to Dr. Dickerson but maybe we will have a second 
round. I mean, for all of us, there is this, and it is worth 
repeating: If you are in a part of this country that cannot 
achieve compliance and there is nothing you can do about that 
because of naturally occurring ozone and yet the economic 
consequence of having to comply with an unachievable standard 
and the frustration that that would create on the parts of many 
people is certainly something that I think all of us would 
appreciate and be sympathetic to.
    My time has expired. Again, I hope we come back for a 
second round. We will see how it goes. I now yield my time to 
the Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much Mr. Chairman, and thank 
you to all the witnesses again for your testimony.
    Dr. Vandenberg, it is my understanding that the ISA review 
for ozone is one of the most extensive studies to date 
conducted by the EPA. You said you have half of it with you; it 
is voluminous. Could you briefly discuss some of the recent 
evidence that demonstrates the harmful effect of ozone on human 
health?
    Dr. Vandenberg. Thank you very much for that question. 
There is a significant amount of new studies that build on 
prior studies regarding the health effects of ozone. These 
include hundreds of epidemiological studies of populations 
throughout the United States and the world. It includes 
controlled human exposure studies. It includes toxicological 
studies, atmospheric sciences study, human exposure studies. 
There is a tremendous body of evidence. As I mentioned in my 
testimony, there are over 2,200 studies that have been 
conducted that are included in this ISA, this is only half of 
them, and over a thousand of those studies are on health 
effects, so we have the great benefit here of tremendous 
scientific weight that underscores the nature of that evidence, 
and what is very clear about it is, it is very clear and 
coherent. A lot of the data fits together very nicely. We have 
got consistency in the results in terms of respiratory effects 
caused by exposure to ozone, and it is clear to me that with 
our Clean Air Scientific Advisory Committee, that there is 
strong endorsement for the strength of that science and how it 
can help inform ultimately the decision making that will be 
down the road.
    Ms. Bonamici. Thank you. And you mentioned in your 
testimony about the three definitions for defining background 
ozone. Could you talk a little bit more about that, expand on 
that, and how did this approach aid in analyzing the scientific 
literature for the review?
    Dr. Vandenberg. Again, thank you very much. I think as the 
science has evolved, and as the other witnesses noted, in the 
last 40 years we have had tremendous advances in terms of both 
air quality management programs but the science that underlies 
that, and in this document, the Integrated Science Assessment, 
what we have done is, we have recognized that a broader set of 
definitions may be informative as we move forward. So we have 
brought to bear this sort of idea that you look at the world's 
background influencing the United States, you look at the North 
American background, which includes Canada and Mexico, and you 
include just North America--or just the United States--excuse 
me. So what that does is, it gives us more information, and I 
think a key feature here is, we want to be as inclusive as we 
can in terms of information to bring to bear as we move that 
into the decision-making process.
    Ms. Bonamici. Thank you.
    And Dr. Dickerson, thank you for your testimony. You had 
talked about how you have worked on the exceptional-event 
process and the issues with the State of Maryland, and you also 
mentioned in your testimony, you offered some assistance to 
states in this exceptional-event process. I wonder if you could 
discuss a little bit about what you are offering and what 
assistance might be available to States as they go through this 
process, which Ms. Smith noted in her testimony was onerous.
    Dr. Dickerson. Thank you. I am sympathetic. It took quite a 
bit of work for the State of Maryland to get its exceptional 
event approved. The NASA AQAST, Air Quality Applied Sciences 
Team, has a number of scientists around the country who are 
very clever at using satellite information and other NASA 
information to help identify natural events or forest fires 
from both space and in situ measurements. For example, in 
answer to Mr. Stewart's question, what would you do if there 
were a tremendous amount of ozone above 60 ppb at some 
beautiful--and I agree completely that Utah is a spectacularly 
beautiful state. I love going hiking there. And if you are on 
top of a mountain and the ozone is above 60 ppb, the answer to 
that question is, you can monitor with commercially available 
instruments that have a proven track record, other pollutants, 
other trace gases like carbon monoxide comes out of tailpipes 
or oxides of nitrogen, and if the ozone is high and those other 
pollutants are not high, this is not a controllable event; it 
is probably a natural event. We know how to identify them, and 
that is pretty conclusive scientific proof that this is not a 
controllable ozone occurrence. So that is what I would 
recommend.
    Ms. Bonamici. Thank you. And I want to go back to Dr. 
Vandenberg because there are concerns raised about the 
inability of states to comply if the standard is lowered. Do 
you believe that the new definitions or these three definitions 
plus the exceptional-event process could result in states being 
able to comply even if the standards are lowered?
    Dr. Vandenberg. I think one of the recognitions that we 
have is that the process of standard setting and then 
implementation are sort of phased. First, we set the standards 
and then we implement them. A lot of information is brought to 
bear there. I don't think you can speak to a particular 
situation as to what would be the approach that you would use, 
and I think the strength of our science is that we have a 
variety of tools that we can apply to help evaluate the types 
of events that are occurring. The key here is to use the 
science to its best advantage.
    Ms. Bonamici. Thank you, and I see my time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Ms. Bonamici, and Mr. 
Dickerson, thanks for answering my question, and if I could 
just comment quickly regarding that.
    You know, you took a very reasonable response to that, and 
I would hope that would be the case, but my fear is that the 
regulations wouldn't allow for the latitude of looking at what 
is naturally versus what was manmade and that the control or 
some of the mechanisms would kick in that would, you know, 
again, not allow for the latitude that you described, but we 
can talk about that after, perhaps.
    We now recognize Mr. Weber for five minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Dickerson, I want to go back to something you said in 
your testimony, and I didn't catch all of it at the time. You 
said that some of the ozone occurrences that you saw were above 
10,000 feet.
    Dr. Dickerson. Yes. We have flown aircraft over the eastern 
United States, and you can see what are called stratospheric 
intrusions. That is a fancy expression for just natural ozone 
coming down from the stratosphere, and you can identify it by 
high ozone but it is very dry and there are no indications of 
pollution in it. I have never seen one of these reach the 
Earth's surface in the eastern United States, though. I would 
love to. It would be very exciting. I would probably ask my 
colleague Sam to help me write a paper on it.
    Mr. Weber. Okay. It sounds like you might be a little bored 
at times, I will tell you. You said that they didn't occur 
except--they weren't substantial except out West. So those 
don't occur very often in the East?
    Dr. Dickerson. They are more frequent at high altitude 
states.
    Mr. Weber. Okay. And I will follow up on what you said 
earlier about assistance to states. Let us go back to that 
scenario for a minute, and before we do, if I remember 
correctly, a lot of the NOX gases, according to the EPA's own 
admission or should I say emission, they have come from--70 
percent of those come from non-stationary-point sources. Is 
that correct? Or maybe that is a question for Dr. Vandenberg.
    Dr. Dickerson. No, I can address that. In the United States 
as a whole, I think about 40 percent from vehicles, and the 
remainder, there are a lot of power plant and boilers and then 
a number of small sources including agricultural.
    Mr. Weber. But non-stationary? You are saying it is only 40 
percent of noxious gases come from non-stationary-point 
sources?
    Dr. Dickerson. The total--the single largest source of 
oxides of nitrogen in the United States is now, according to 
the EPA estimates, tailpipe emissions from vehicles.
    Mr. Weber. Okay. And so basically can you explain why it is 
that in the Northeast where there is a higher concentration of 
people and probably more vehicles, why there is less 
concentration there than over in the West or in the central 
part of the country?
    Dr. Dickerson. Okay. I think your question is, why is there 
more NOX in the Northeast than there is----
    Mr. Weber. Why isn't there?
    Dr. Dickerson. Oh, isn't. There is. There is a picture we 
will show you concentrations of NOX are higher certainly in 
urban areas than in rural areas, and they are generally higher 
in the eastern United States, excluding California, than in the 
western United States.
    Mr. Weber. So due in large part to a lot of the vehicles 
you would say, but you are saying only 40 percent?
    Dr. Dickerson. They are an important source, absolutely.
    Mr. Weber. Okay. You said in one of my colleague's 
questions, assistance to the states, that if there was an event 
that was identifiable, you could provide assistance to the 
states and then you said it not a controllable event, it is a 
natural occurrence.
    Dr. Dickerson. There are natural occurrences such as 
stratospheric intrusions. These are identifiable from the 
meteorology. Sometimes they can be seen from space. And if a 
full monitor, a full air-pollution monitor were there, you 
would----
    Mr. Weber. So are you suggesting that in a real-time basis, 
the Federal Government would get involved and interact with the 
states and say we have this event going on and we need to send 
you some assistance to take care of it?
    Dr. Dickerson. I don't know about the real-time part but 
certainly there are ongoing efforts from me and my colleagues 
at the University of Maryland and another couple dozen 
universities around the country where we use NASA observations 
to identify----
    Mr. Weber. Well, it scares me when you get the Federal 
Government involved with the states because we are fixing to 
put more regulations on them. Strings come attached with 
everything that the feds tell the states to do. How often do 
those occur? Once a year, twice a year, every month, every day, 
every week?
    Dr. Dickerson. Forest fires are extremely common and 
identifiable.
    Mr. Weber. So you are basically describing what is 
happening out West, and I am running out of time here, so 
forgive me.
    Let me jump over to Dr. Vandenberg for just a second. You 
said, Dr. Vandenberg, in your testimony, it scares me a little 
bit because it doesn't seem commonsensical. Of course, let me 
just be sarcastic for a minute. I think when it comes to common 
sense, the EPA may be in nonattainment, okay? You said first we 
set the standards and then we implement them. Wouldn't it be 
commonsensical to have a stopgap measure that says what effect 
does this have on industry? What are we fixing to mandate--that 
is a Texas term, ``fixing.'' What are we fixing to mandate on 
industry and are we fixing to drive everybody's cost of fuel, 
heating oil, electricity, and everything sky high because we 
are going to mandate on the industry? Shouldn't that be 
considered, Dr. Vandenberg?
    Dr. Vandenberg. Thank you for your question. The way the 
Clean Air Act is constructed is I think the science is brought 
to bear to set the standards and then the states are evaluating 
their air quality conditions and developing state 
implementation plans in order to attain those standards or 
maintain the air quality that is necessary. So I think it is 
the relationship between the Clean Air Act and the process is, 
it is develop the standards and then work with the states' 
state implementation plans, evaluate the monitoring data, look 
at the sources as you were just discussing, and then determine 
the appropriate approaches that would lead to attainment and 
maintenance of acceptable air quality.
    Mr. Weber. Well, there is a lot more I could say, but Mr. 
Chairman, thank you. I am out of time and I yield back.
    Chairman Stewart. Yes, you are, sir. Thank you, Mr. Weber. 
And now Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman, and thank you to our 
witnesses for sharing your expertise today.
    Clean air is an issue that is vitally important to my 
constituents. I am reminded of it every time I enter this 
committee room and I look over to see the portrait of former 
Chairman George Brown hanging above me. Congressman Brown 
represented parts of Riverside County in my own district during 
his 34 years of service in the House, and during that time he 
was a champion for science and fought to improve air quality 
for millions across the country. He was an early supporter of 
the legislation creating EPA and worked to include ozone 
provisions in the Clean Air Act. It is because of leaders like 
George Brown that we have seen air quality in southern 
California make great improvements.
    Growing up in Riverside, I remember days where we couldn't 
go outside for physical education class because the smog was so 
bad, days where you couldn't even see the mountains. In the 
1970s, the ozone levels in southern California exceeded Federal 
health standard levels more than 200 times out of the year. And 
thanks to a lot of hard work and coordination between federal, 
state and local stakeholders, we have cut that number of days 
in half. Guidance from EPA has been and will continue to be a 
critical component of efforts to improve air quality in 
southern California, and I am glad to learn more about the 
process of these standards today.
    My first question, Ms. Smith, do you--can you tell me about 
your background, your academic training? Do you have any 
degrees, undergraduate degrees or advanced degrees, that are 
scientific in nature?
    Ms. Smith. I do not. I have a degree in political science 
and history and law.
    Mr. Takano. And so your assertion today that there are 
parts of this country that could not meet these standards, is 
that an evaluation based on science or based on background 
training that is more political and legal in nature?
    Ms. Smith. That is actually an assessment that is based on 
the hundreds of air quality scientists and engineers that work 
for the Department of Environmental Quality.
    Mr. Takano. But you yourself do not have academic 
background in science?
    Ms. Smith. That is correct.
    Mr. Takano. But you are here as an expert witness to offer 
a scientific--or is it a scientific or a political assessment?
    Ms. Smith. Actually, I was asked to come and give a state's 
perspective on the policy implications and the ability for the 
states to actually implement and create a plan to----
    Mr. Takano. Thank you very much. Mr. Holmstead, can you 
tell me whether or not you have any scientific advanced degrees 
or undergraduate training?
    Mr. Holmstead. No, and I don't purport to do that. My role 
in this meeting as well as in much of my career is to deal with 
regulatory policy and how it works, and so that is my view here 
this morning is to talk about how the Clean Air Act works from 
a regulatory perspective and so I rely on others, and I think 
all of them have agreed, that there are sources that cannot be 
controlled in the United States that contribute to a large 
share of the problems that we have here. So I don't think there 
is any scientific dispute about that. I think the question is, 
well, what do you do once you recognize that those are the 
data.
    Mr. Takano. All right. Dr. Vandenberg, you believe that the 
major basis on which we should establish levels of ozone that 
are acceptable should be based on the science concerning what 
ozone does to the health of the public. Is that right?
    Dr. Vandenberg. Right. There is a tremendous body of 
evidence, scientific evidence, on the health and environmental 
effects that ozone produces with exposure.
    Mr. Takano. And it points to the level of 60 parts per 
billion. Is that right?
    Dr. Vandenberg. Again, I am not going to speak to the 
specifics in terms of a level but the scientific evidence does 
go from higher levels down to 60 and below. We look at the 
entirety of the exposures that are occurring. Some are 
relatively low, some are relatively high, and we look at the 
relationships between those exposures and effects.
    Mr. Takano. Do you agree or disagree with the Chairman's 
assertion that parts of this country could not comply or would 
not be able to attain these ozone standards as proposed? Or is 
the scientific evidence somewhat inconclusive?
    Dr. Vandenberg. What I would like to say is, as I 
understood the question, was whether the background levels of 
ozone would lead to nonattainment areas, if I am correct about 
that, and that is where I would have to say we would have to 
look at the modeling that has been done as well as consider 
those exceptional events that occurred to make those judgments. 
I can't say that there are any places that would not meet the 
standard specifically because of background levels. Background 
contributes to the ozone but on top of that is the human-
derived emissions.
    Mr. Takano. Thank you. Mr. Dickerson, same question.
    Dr. Dickerson. Good question. I do not know conclusively if 
there are areas that would fail to meet a 60 ppb. There are 
certainly areas in the western United States where it might be 
difficult.
    Mr. Takano. Okay. But Ms. Smith, you categorically believe 
that there would be?
    Ms. Smith. Based on what we have looked at in terms of the 
monitoring that we have seen coming from the State of Utah, 
there are counties that would not meet the 60 ppb from past 
history.
    Mr. Takano. Okay. I have heard the scientists be 
inconclusive but you are absolutely certain?
    Ms. Smith. Yes.
    Mr. Takano. Thank you.
    Chairman Stewart. Thank you. Before we go on, I would like 
to note that I was very clear in my questioning to the panel. I 
gave you each the opportunity to say do you disagree with that 
assertion, and none of you spoke up at that point. I am hearing 
something slightly different right now, which again, we may 
follow up with additional written questions.
    The full Chairman, Mr. Smith, we will give you your five 
minutes for questions.
    Chairman Smith. Thank you, Mr. Chairman, and let me 
apologize. I am having to shuttle back and forth between this 
Committee and another committee I sit on, which is marking up 
two bills, so I am trying to go to one place and ask questions 
and then another, and if these questions have been answered, 
let me know and we can go on.
    Mr. Holmstead, let me address the first couple of questions 
to you. First is this: Of the 28 members of the Clean Air 
Scientific Advisory Committee review panel for ozone, 22 of the 
28 are cited by EPA in the Integrated Science Assessment they 
have been asked to review. Is this consistent with the 
requirement in EPA's peer-review handbook that ``an independent 
peer reviewer is an expert who is not associated with the 
generation of the specific work product either directly or 
indirectly''?
    Mr. Holmstead. I have to say, I am not entirely clear of 
how EPA's regulations work. I think people have raised 
legitimate issues about the need for people outside of this 
little community to be involved in the process, but I can't say 
whether is it a violation of the peer-review requirements.
    Chairman Smith. Okay. It seems on the face that it probably 
is if you go by the common definitions involved, so I will just 
say that that is my opinion and I look forward to hearing more 
about that from the others.
    My next question, though, to you is, the EPA appears poised 
to rely on a single study to establish a link between ozone and 
chronic mortality despite the overwhelming weight of evidence 
from other studies. This study is based on data that has not 
been made public or verified by independent scientists. Would 
you agree that that is not the best way to pursue it and that 
is not the best way to make decisions?
    Mr. Holmstead. I do think that a lot of us are troubled 
that important decisions are made based on data that is not 
publicly available, and I am a little surprised that that 
hasn't been resolved before now. The government has funded many 
of these studies. It is surprising that the data are not 
available to outside researchers. And again, these data sets 
are so enormous that there is just different ways of looking at 
the data, and maybe Dr. Dickerson has more familiarity with it 
but I think we would all benefit from having public 
availability of data that are used to set regulatory and other 
requirements.
    Chairman Smith. And Dr. Dickerson, would you agree with 
that?
    Dr. Dickerson. I am not really comfortable discussing EPA's 
policy. I don't work for the EPA. But I would indicate that if 
you were going to ask people to evaluate ozone science, that 
you would expect all of them have written peer-reviewed 
scientific publications that would be cited in criteria 
documents or science assessments. How would you--that would 
forbid me or my colleague Sam from----
    Chairman Smith. You don't want to exclude anybody who had 
been an expert on it. On the other hand, you don't want to have 
a biased source that might have a vested interest in coming up 
with a predetermined conclusion either.
    But let me ask you and Mr. Holmstead a related question, 
which is, you have got the EPA's Inspector General currently 
reviewing potential conflicts of interest and a lack of 
impartiality among the Clean Air Scientific Advisory Committee. 
Don't you think that we should maybe wait until we see what the 
Inspector General has to say before we issue too many more 
regulations that might involve conflicts of interest and a lack 
of impartiality? Mr. Holmstead?
    Mr. Holmstead. There certainly are legitimate issues that 
have been raised. I don't know anything about the IG 
investigation, but I do think it is good for--you know, I am a 
little uncomfortable about some of these issues because I am 
not as familiar with them, but I do think it is good to have 
all of these things aired publicly so that we really understand 
more about the data on which these decisions are made and who 
it is that--and what interests they may have.
    Chairman Smith. Okay. Thank you.
    Dr. Vandenberg, the person you report to is Dr. Kenneth 
Olden, who is Director of the National Center for Environmental 
Assessment at EPA. Dr. Olden has said, ``Studies used in the 
formation of regulations should be subject to data access 
requirements regardless of who funded the study.'' He has 
followed this recommendation as head of the National Center. Do 
you agree with his statement?
    Dr. Vandenberg. Thank you for that question. This is a 
complex area because some of the studies that we are referring 
to here include private individual medical information and so I 
think what is essential is to assure the protection of an 
individual's private----
    Chairman Smith. I am not talking about classified or 
confidential information but just in general do you agree with 
Dr. Olden's standard?
    Dr. Vandenberg. That the data should be available?
    Chairman Smith. Yes, correct.
    Dr. Vandenberg. Of course, yes.
    Chairman Smith. Good. Thank you, Dr. Vandenberg. Thank you, 
Mr. Chairman. Yield back.
    Chairman Stewart. Thank you, Mr. Chairman. The final 
questions will come today from Ms. Edwards.
    Ms. Edwards. Mr. Chairman, thank you, and I actually hope 
we do go to a second round of questions.
    Dr. Dickerson, my question is for you. A key to some recent 
findings is the discovery of a chemical signature that 
differentiates emissions from oil and gas activity from those 
given off by automobiles, cow manure, or other sources of 
volatile organic compounds. The finding was fundamental to the 
conclusion that oil and gas activity contributed about 55 
percent of the volatile organic compounds linked to unhealthy 
ground-level ozone. Can you please tell me whether this 
chemical signature will help determine how much ozone levels 
are due to things like gas wells versus the impact in a 
metropolitan region such as ours where we experience high 
levels of ozone, bad air quality, and we are always at the top 
of those lists? Can you tell me how you think those--that 
chemical signature could help in making determinations for EPA 
and using its flexibility in setting ozone standards?
    Dr. Dickerson. Yes, I would be happy to. I have to say wow, 
I didn't expect such technical questions. It is absolutely true 
that oil and gas operations have a characteristic signature of 
isomers of pentane and other hydrocarbons that allow you to 
differentiate those from tailpipe emissions, and these are 
indeed useful investigations. Ozone can be made in a power-
plant plume that has one chemical signature. It can come from 
tailpipe emissions. That has a different--forest fires are not 
as efficient as internal combustion engines but they can make 
ozone as well. They have yet another chemical signature. And 
all of these are indeed distinguishable by hydrocarbon ratios 
as well as other trace gases and aerosols.
    Ms. Edwards. So let me just ask this, and maybe this goes 
to Mr. Vandenberg. Wouldn't it be the case that if we are able 
to make those distinctions in the source by this chemical 
signature, that that could enable us to make adjustments in a 
way that would accommodate some of the interests of some states 
that are claiming or regions that are claiming to produce ozone 
that they don't have--where there is ozone present, they don't 
have any control of and we might actually use--the EPA could 
use its regulatory authority to make some distinctions in those 
regions so we really do get at the heart of the problem?
    Dr. Vandenberg. Thank you for the question, and again, to 
reinforce the comment, I think with the advancements in science 
in terms of looking at chemical signatures, that is the kind of 
information that I think helps inform the decision making 
downstream in terms of what is a natural event, what is a 
source of the contributors to the ozone that is in the air, and 
I think that is a very important type of information that can 
be brought to bear.
    Ms. Edwards. And Mr. Oltmans, I probably should direct this 
really to you because it is the work of the scientists at the 
Cooperative Institute for Research and Environmental Sciences 
at the University of Colorado that you are representing that 
actually helped to reach this conclusion. How do you think the 
discovery can clarify some of the questions that we have about 
background ozone levels and contribute to EPA's research and 
review process?
    Mr. Oltmans. Yes, I am familiar with the work that you are 
discussing. Most of it took place in the front range of 
Colorado, Utah and in Wyoming. Personally, I am not sure that 
this is that important a factor in determining the role of 
background ozone. One of the things I think that is 
misinterpreted about background ozone, it isn't that often that 
background ozone itself leads to a violation of the standard 
but it gives very little room for regulatory control to bring 
ozone levels down to the standard. In other words, it is very 
unusual for ozone to be 60 parts per billion in what would be 
considered background conditions. But as you push up close to 
60 parts per billion on the background, it is very difficult to 
find any regulatory scheme that will reduce the result from 
photochemically produced ozone either over a region or locally 
to be controlled and meet the standard. I think that is one of 
the things that needs to be considered, and background ozone 
itself is not the violation of the standard by the background 
but how difficult it makes it to control.
    Ms. Edwards. I think I understand that. I guess my point, 
and we can get to this at some other point, I suppose, is that 
knowing, for example, that 40 percent is coming from that 
background ozone that we don't have any control of, would that 
allow then the EPA to exercise somewhat more flexibility in 
those areas in order to have ozone settings that actually 
reflected the things that we could have control over? Anyway, I 
think my time is expired. I hope we get to a second round.
    Chairman Stewart. Thank you, Ms. Edwards. Many of us would 
actually really appreciate the opportunity for a second round. 
However, the nature of what we do being what it is, a couple of 
us have to go another committee where they are holding votes 
for us now, so unfortunately, we won't be able to take that 
opportunity at this time. However, I would like to remind 
Members that we can follow up with written questions, and 
several of us intend to do that.
    I thank the witnesses for your valuable testimony and 
Members for their questions, and as I said, Members of the 
Committee may have additional questions, and we will ask you to 
respond to this in writing. The record will remain open for two 
weeks for additional comments and written questions from the 
Members.
    With that, the witnesses are excused and this hearing is 
now adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Ms. Amanda Smith

[GRAPHIC] [TIFF OMITTED] T1724.053

[GRAPHIC] [TIFF OMITTED] T1724.054

[GRAPHIC] [TIFF OMITTED] T1724.055

[GRAPHIC] [TIFF OMITTED] T1724.056

[GRAPHIC] [TIFF OMITTED] T1724.057

[GRAPHIC] [TIFF OMITTED] T1724.058

Responses by Mr. Samuel Oltmans

[GRAPHIC] [TIFF OMITTED] T1724.059

[GRAPHIC] [TIFF OMITTED] T1724.060

[GRAPHIC] [TIFF OMITTED] T1724.061

[GRAPHIC] [TIFF OMITTED] T1724.062

Responses by Dr. Russell Dickerson

[GRAPHIC] [TIFF OMITTED] T1724.063

[GRAPHIC] [TIFF OMITTED] T1724.064

Responses by Mr. Jeffrey Holmstead

[GRAPHIC] [TIFF OMITTED] T1724.065

[GRAPHIC] [TIFF OMITTED] T1724.066

[GRAPHIC] [TIFF OMITTED] T1724.067

[GRAPHIC] [TIFF OMITTED] T1724.068

[GRAPHIC] [TIFF OMITTED] T1724.069

[GRAPHIC] [TIFF OMITTED] T1724.070

Responses by Dr. John Vandenberg

[GRAPHIC] [TIFF OMITTED] T1724.075

[GRAPHIC] [TIFF OMITTED] T1724.076

[GRAPHIC] [TIFF OMITTED] T1724.077

[GRAPHIC] [TIFF OMITTED] T1724.078

[GRAPHIC] [TIFF OMITTED] T1724.079

[GRAPHIC] [TIFF OMITTED] T1724.080

[GRAPHIC] [TIFF OMITTED] T1724.081

[GRAPHIC] [TIFF OMITTED] T1724.082

[GRAPHIC] [TIFF OMITTED] T1724.083

[GRAPHIC] [TIFF OMITTED] T1724.084

[GRAPHIC] [TIFF OMITTED] T1724.085

[GRAPHIC] [TIFF OMITTED] T1724.086

[GRAPHIC] [TIFF OMITTED] T1724.087

[GRAPHIC] [TIFF OMITTED] T1724.088

[GRAPHIC] [TIFF OMITTED] T1724.089

[GRAPHIC] [TIFF OMITTED] T1724.090

[GRAPHIC] [TIFF OMITTED] T1724.091

[GRAPHIC] [TIFF OMITTED] T1724.092

[GRAPHIC] [TIFF OMITTED] T1724.093

                              Appendix II

                              ----------                              


                   Additional Material for the Record



               Charts submitted by Chairman Chris Stewart

[GRAPHIC] [TIFF OMITTED] T1724.071

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
